                                      Department of the Interior 
                                      Office of Inspector General 
                                                                  
                                                                       
                                                                       
                                                                       
                    AUDIT REPORT 


                                     
                       U.S. Fish and Wildlife Service 
                    Federal Assistance Program Grants 
                       Awarded to the State of Iowa, 
                     Department of Natural Resources,  
                 From July 1, 2004, Through June 30, 2006 
                                         
                                             
 
 
 
 
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0012­2007                     January 2008 
                United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191

                                                                                   January 25, 2008

                                       AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Program
           Grants Awarded to the State of Iowa, Department of Natural Resources,
           From July 1, 2004, Through June 30, 2006 (No. R-GR-FWS-0012-2007)

        This report presents the results of our audit of costs incurred by the State of Iowa (State),
Department of Natural Resources (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Federal Assistance
Program for State Wildlife Restoration and Sport Fish Restoration (Federal Assistance Program).
The audit included claims totaling $30,532,951 on 24 grants that were open during State fiscal
years (SFYs) ended June 30 of 2005 and 2006 (see Appendix 1). The audit also covered
Department compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $293,377 (federal share) and
developed findings related to in-kind contributions, unreported program income, and the
certification of hunting and fishing licenses.

       We provided a draft report to FWS and the Department for a response. We summarized
the Department and FWS Region 3 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
April 24, 2008. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Zane Michael, or me at 703-487-5345.

cc: Regional Director, Region 3, U.S. Fish and Wildlife Service
                                                 Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

       •   claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

       •   used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling $30,532,951 on the 24 grants that were open during SFYs
2005 and 2006 (see Appendix 1). We report only on those conditions that existed during this
audit period. We performed our audit at Department headquarters in Des Moines, IA, and
visited three wildlife management units, six wildlife management areas, one fish hatchery, two
fish research stations, and two other sites (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendment of 1996 and by
Office of Management and Budget Circular A-133.




1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to review equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the work of the State of Iowa Office of Auditor of State,
which helped us to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On July 29, 2004, we issued “U.S. Fish and Wildlife Service Federal Assistance Grants
Administered by the State of Iowa, Department of Natural Resources from July 1, 2000, through
June 30, 2002” (Report No. R-GR-FWS-0022-2003). Based on the Corrective Action Plan
provided to us by the Fish and Wildlife Service, we determined that all recommendations were


                                                 3
resolved and implemented. We did not refer any recommendations to the Department of the
Interior, Office of Policy, Management and Budget for tracking.

We reviewed Iowa’s Comprehensive Annual Financial Reports and Single Audit Reports for the
SFYs ended June 30 of 2005 and 2006. None of these reports contained any findings that would
directly impact the Department’s Federal Assistance Program grants or programs under the
grants. In addition, the Department’s Sport Fish Restoration and Wildlife Restoration Programs
were not selected for compliance testing in either the SFY2005 or 2006 Single Audits.




                                              4
                                           Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling
$293,377. We discuss the findings in more detail in the Findings and Recommendations section.

        Questioned Costs. The Department did not have adequate support for some costs used
        to meet the requirement that the State expend 25 percent of grant costs using non-federal
        funds. As a result, we questioned $293,377 in costs.

        Unreported Program Income. The Department did not account for all program income
        earned from activities on lands managed with Federal Assistance Program funds.

        Counts of Lifetime License Holders Potentially Over-Reported. The Department may
        have included ineligible lifetime licenses in its 2004 certification of the number of license
        holders in the State. Over-reporting the number of license holders could lead the State to
        receive a larger apportionment of Federal Assistance Program funds than it is entitled to
        receive.

Findings and Recommendations

A.      Questioned Costs — $293,377

        Under the provisions of the Department’s hunter education grants (W-114-S-36 and
        W-114-S-37), the Department must expend 25 percent of grant costs using non-federal
        funds. Department officials used the value of volunteer instructor hours (in-kind
        contributions) to provide this “State matching share” of costs on its hunter education
        program grants. The officials claimed $189,889 as in-kind matching contributions for
        Grant W-114-S-36 and $201,280 for Grant W-114-S-37.2 The Department did not have
        adequate support for these in-kind hours claimed.

        The Department recorded hours volunteered on instructor report forms (report forms).
        To comply with the Code of Federal Regulations (C.F.R.), each volunteer should have
        certified his or her hours worked, because Department employees certify their timesheets.
        Specifically, 43 C.F.R. §12.64(b)(6) requires States to adequately document third-party
        in-kind contributions that are used to meet the matching requirement and, to the extent
        feasible, to support volunteer services “by the same methods that the organization uses to
        support the allocability of regular personnel costs.” However, according to a Department

2
 Department officials reported that they accumulated $425,064 of in-kind contributions for grant W-114-S-36 and
$426,953 for grant W-114-S-37, and claimed a portion of these contributions as the required State matching share.


                                                        5
employee, the Department required only conservation officers to sign the report forms.
We were told that the conservation officers do not even always attend the classes. The
Department did not have a policy or procedures to require signatures on the report forms
from volunteer instructors or the Chief Firearms instructor, who supervised the classes.

We were unable to review all supporting documentation to determine whether the
Department had adequate support for the hours claimed or for the hours recorded in
excess of those needed for the State match. Reviewing all support would have been
prohibitively time-consuming because it was on microfilm that included 99 State counties
and it contained information on more than the hunter education grants. However, for
SFY2005, we judgmentally selected and reviewed report forms for 5 of 99 counties in
Iowa that covered various reporting periods. We confirmed that volunteer instructors did
not sign the time reporting sheets. We also found inconsistencies in how the
conservation officers were signing the report forms, including:

     •   a conservation officer signature that was preprinted and

     •   report forms missing the conservation officer signature.

Unless officials can provide adequate support for the in-kind contributions, they must use
the actual costs incurred and reported as cash outlays to meet the State matching
requirement. We therefore questioned 25 percent of cash outlays that were claimed for
federal reimbursement.

                                             Cash Outlays
                    Federal Share          Necessary to Meet
                      Claimed               State Matching             Revised
     Grant       (Reimbursement for          Requirement              Allowable
    Number          Cash Outlays)         (Questioned Costs)        Federal Share
   W-114-S-36         $569,668                 $142,417                $427,251
   W-114-S-37         $603,839                 $150,960                $452,879
   Total                                       $293,377

                             Table 1. Questioned Costs

The Department needs to strengthen its process over in-kind contributions claimed to
meet the State matching share of costs on its hunter education program grants.

Recommendations

We recommend FWS require the Department to:

1. provide additional documentation to support the in-kind contributions for SFYs 2005
   and 2006 or, if they cannot, resolve the questioned federal share of $293,377; and

2. develop written policy and procedures that require volunteer instructors to sign their
   timesheets.

                                         6
     Department Response

     Department officials did not concur with the recommendations. They agreed that some
     of the reports were not properly signed by a conservation officer. However, they do not
     believe that the costs should be questioned because of the missing signatures. The
     Department has documentation to demonstrate that the classes were held, students were
     trained, and the number of hours spent on the courses by instructors. Officials stated they
     are addressing the problem by creating a new electronic records system that will require
     each instructor to certify the hours listed on the reporting form. Officials indicated the
     Hunter Education coordinator will consult with the FWS to ensure the system meets
     applicable requirements.

     FWS Response

     FWS regional officials concurred with the recommendations and stated that they would
     work with the State to develop a corrective action plan that will resolve all of the
     findings.

     OIG Comments

     While FWS management concurs with the recommendations and Department officials
     indicated they are taking action to correct the problem in the future, additional
     information is needed in the corrective action plan. The plan should include:

        •   the specific actions taken or planned to resolve and implement each
            recommendation,

        •   targeted completion dates,

        •   titles of officials responsible for implementing the actions taken or planned to
            resolve and implement each recommendation, and

        •   verification that FWS officials reviewed and approved of actions taken or planned
            by the Department.

B.   Unreported Program Income

     Federal regulations allow grantees to earn income from activities funded with grant
     monies, but require that they account for the income in an approved manner. The
     Department did not report all program income generated on lands within the wildlife
     management areas that were managed and maintained with Federal Assistance Program
     funds under grants FW-43-D-37 and FW-43-D-38. The Department earned the
     unreported program income through barter transactions.

     The Department engaged on an annual basis in barter transactions under 350 agriculture
     leases. Under one type of barter transaction, the farmers agree to leave a portion of their

                                              7
crop in the field for the benefit of wildlife, in lieu of paying cash for the use of the land.
The Department did not report the value of any of the crops left for wildlife as program
income on the financial status reports (SF-269) for the affected grants. Under a second
type of barter transaction, the farmers’ payments for use of the land also included both
cash and services. The services performed by the farmers were intended to improve and
maintain wildlife habitats. The Department reported on the SF-269 only the cash
received, not the value of services. The Department should have reported both.

Under 43 C.F.R. § 12.65, program income is defined as gross income received by the
grantee directly generated by a grant supported activity, or earned only as a result of the
grant agreement during the grant period (emphasis added). The regulations also require a
grantee to report the program income in the method specified by the grantor. The FWS
Manual (522 FW 19.4, Exhibit 1) requires grantees to report income they receive from
contractor-provided services that support grant objectives on lands purchased or managed
with Federal Assistance Program funds. Exhibit 1 specifically mentions income from
agriculture producers and the harvest of assets—such as timber or hay—as potential
program income.

Agency staff did not report program income earned or received from barter transactions
during the period of our review for crops because they were not aware such arrangements
were generating barter income for the Department. We were also told that the value of
the barter for the services provided was not reported as program income because the
Department was not aware of how much barter was occurring at the wildlife areas.

We believe the value of crops and services received in lieu of lease payments should be
reported as program income. Any associated costs should be reported as outlays, rather
than deducted from the gross value of the services. Although we recognize the difficulty
in valuing barter income, proper reporting of all program income will help ensure that
these revenues are used to benefit program purposes.

Recommendations

We recommend that FWS:

1. resolve the issue of the unreported program income from the barter transactions that
   occurred during the audit period; and

2. coordinate with the Department to establish procedures to (a) identify the barter
   transactions and the appropriate accounting and reporting of this arrangement in
   future grant applications, and (b) appropriately report the value on future SF-269s.

Department Response

Department officials concurred with the recommendations. To address the
recommendations, they proposed amending the financial status reports and discontinuing
barter practices when the current lease agreements expire. Officials indicated that staff
from the Department of Budget and Finance will amend the financial status reports by

                                           8
     March 31, 2008. Program staff will amend the grant narrative to ensure bartering ceases,
     as the lease agreements expire.

     FWS Response

     FWS regional officials concurred with the recommendations and stated that they would
     work with the State to develop a corrective action plan that will resolve all of the
     findings.

     OIG Comments

     The Department has provided corrective actions it plans to take, targeted completion
     dates, and titles of officials responsible for implementation. When FWS submits the
     corrective action plan, it should contain this information, as well as verification that FWS
     officials reviewed and approved of actions taken or planned by the Department.

C.   Counts of Lifetime License Holders Potentially Over-Reported

     FWS requires States to report the number of hunting and fishing license holders annually
     and to certify the accuracy of their counts. The Department includes in its counts the
     number of lifetime hunting and fishing licenses it sold. Since Iowa’s lifetime licenses are
     multi-year licenses, the Department counts them in several annual license certifications.
     Department records showed that there were 117,651 (33,879 hunting and 83,772 fishing)
     lifetime license holders included in the 2004 license certification. Regulations specify
     that for a license to be eligible for inclusion in the annual count, it must earn net revenue
     or meet other specific criteria for eligibility. The lifetime licenses that the Department
     included in its 2004 certification may not have all earned revenue in that year or been
     otherwise eligible to be counted.

     One way for lifetime licenses to earn revenue in multiple years—and be eligible for
     inclusion in the certifications for multiple years—is for the revenue to be kept as
     principle to earn interest. The Department uses one trust fund, the Fish and Wildlife
     Fund, for recording fish and wildlife expenditures and revenue, including lifetime
     license revenues. A review of the trust fund account shows that there was approximately
     a $4 million dollar carry forward balance into SFY2005. We could not determine from
     the information the Department provided if the carry forward balance contained sufficient
     principal from earlier sales of lifetime licenses to generate net revenue (interest) for the
     years in which they were counted on the certification, or whether the Department spent
     the initial revenue (principle) earned.

     Under 50 C.F.R. § 80.10 (c)(2), licenses which do not return net revenue to the State shall
     not be included in the certification. Specifically, the regulations state: “To qualify as a
     paid license, the fee must produce revenue for the State. Net revenue is any amount
     returned to the State after deducting agent or seller fees and the cost for printing,
     distribution, control or other costs directly associated with the issuance of each license.”
     The regulations do state that licenses valid for multiple years may be counted when the


                                               9
net revenue earned “is commensurate with the period for which hunting or fishing
privileges are granted.”

The Department believed that the revenue earned for lifetime license holders exceeded
the expenses associated with those license holders in the current and future periods in
which the holders were being included in the certification. However, the Department had
not performed an analysis to demonstrate that all lifetime license holders generated net
revenue (interest) for the years they were counted, or that the original fee charged was
commensurate with the period for which the licenses were counted.

The annual apportionment of grant funds to each State depends, in part, on the number of
license holders in each State. The license certification was potentially overstated, which
could have resulted in a higher apportionment to the Department.

Recommendations

We recommend that FWS require the Department to:

1. demonstrate that either that there were sufficient lifetime license funds available to
   generate net revenues for the lifetime license counted in the FY2004 annual
   certification or that the original fee charged is commensurate with the period for
   which the license was counted, or to revise the certification; and

2. develop policies and procedures to ensure all lifetime licenses they count in future
   certifications are eligible licenses.

Department Response

Department officials did not concur with the recommendations. The Department issues
lifetime hunting and fishing licenses to residents 65 or older for $51. Lifetime licenses
are counted in the Department’s annual certification based on actuary tables averaging 12
years. The Department believes that it earns net revenue on lifetime licenses sold since
the cost for printing is less than $1 and a typical lifetime license is used in the
certification for an average of 12 years.

FWS Response

FWS regional officials concurred with the recommendations and stated that they would
work with the State to develop a corrective action plan that will resolve all of the
findings.

OIG Comments

While FWS management concurs with the recommendations, additional information is
needed in the corrective action plan, including:



                                         10
•   the specific actions taken or planned to resolve and implement the recommendations,

•   targeted completion dates,

•   titles of officials responsible for implementing the actions taken or planned to resolve
    and implement the recommendations, and

•   verification that FWS officials reviewed and approved of actions taken or planned by
    the Department.




                                         11
                                                     Appendix 1

     IOWA DEPARTMENT OF NATURAL RESOURCES
     FINANCIAL SUMMARY OF REVIEW COVERAGE
        JULY 1, 2004, THROUGH JUNE 30, 2006


                                                Questioned
                                              (Federal Share,
Grant Number   Grant Amount   Claimed Costs    Unsupported)
 F-118-D-17        $780,580       $914,913
 F-118-D-18        $348,000        $67,420
 F-125-E-17        $516,309       $579,541
 F-125-E-18        $524,989       $562,176
 F-160-R-9       $1,136,700     $1,115,407
 F-160-R-10      $1,189,500     $1,142,565
 F-165-D-2       $2,810,666     $1,818,955
 F-171-D-1       $1,441,733       $495,789
 F-173-D-1         $100,000        $86,645
 F-174-D-1          $30,000        $28,217
 F-175-D-1         $200,000       $276,058
 F-176-D-1       $2,238,165     $2,368,753
 F-176-D-2       $2,248,430     $2,602,944
 F-177-D-1       $3,000,000             $0
 F-178-D-1          $90,000        $50,253
 F-179-D-1         $200,000       $158,213
 F-180-D-1         $200,000       $160,179
 FW-43-D-37      $6,683,000     $6,652,261
 FW-43-D-38      $7,016,000     $7,086,925
 FW-47-L-3         $550,000     $1,289,017
 W-114-S-36        $767,613       $994,732      $142,417
 W-114-S-37        $916,324     $1,030,792      $150,960
 W-115-R-31        $425,700       $499,564
 W-115-R-32        $411,275       $551,632
 TOTALS         $33,824,984    $30,532,951      $293,377




                         12
                                       Appendix 2


IOWA DEPARTMENT OF NATURAL RESOURCES
            SITES VISITED
              Headquarters

               Des Moines


        Wildlife Management Units

               Bays Branch
              Missouri River
               Otter Creek


        Wildlife Management Areas

               Badger Lake
               Bays Branch
             Dudgeon Lake
             McCord Ponds
            Otter Creek Marsh
               Round Lake


              Fish Hatchery

               Manchester


          Fish Research Stations

               Cold Springs
               Manchester


                  Other

            Kozta Access Area
               Lake Icaria



                   13
                                                                                APPENDIX 3


                  IOWA DEPARTMENT OF NATURAL RESOURCES
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                  Status                          Action Required
A.1, A.2, B.1, B.2,   FWS management concurs         Additional information is needed in the
C.1, and C.2          with the recommendations,      corrective action plan, including the
                      but additional information     actions taken or planned to implement
                      is needed as outlined in the   the recommendations, targeted
                      “Actions required” column.     completion date(s), the title of official(s)
                                                     responsible for implementation, and
                                                     verification that FWS officials reviewed
                                                     and approved of actions taken or
                                                     planned by the State. We will refer
                                                     recommendations not resolved and/or
                                                     implemented at the end of 90 days (after
                                                     April 24, 2008) to the Assistant
                                                     Secretary for Policy, Management and
                                                     Budget for resolution and/or tracking of
                                                     implementation.




                                            14
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
